APPENDIX A
IN THE COURT OF APPEALS
OF MARYLAND
No. 61
September Term, 2019
Motor Vehicle Administration, et al,

v.
Karl Geppert
Barbera, C.J •>
McDonald
Hotten
Getty
Booth
Biran
Battaglia, Lynne A.
(Senor Judge, Specially
Assigned),
JJ.
Opinion by McDonald, J.

Filed: July 27, 2020

1

This appeal poses the question whether a
court must enforce a final administrative decision of
an executive branch agency when the losing party
previously failed to seek judicial review of that
decision, even if the relief granted by that decision
violates a statute that specifically prohibits the
agency from taking the action required by the
administrative decision.
A State statute requires, as a condition for
obtaining a Maryland driver’s license, that an
applicant provide the Motor Vehicle Administration
(“MVA”) with the applicant’s social security number,
or proof that the applicant is ineligible for a social
security number. A second statute explicitly bars the
MVA from issuing a license to an applicant who fails
to satisfy that requirement.
This case began when Respondent Karl
Geppert, who does not have a social security number
but is eligible for one, applied for a learner’s permit
(an initial step toward a driver’s license). Petitioner
MVA denied Mr. Geppert’s applicant because he
failed to satisfy the statutory requirement related to
providing a social security number. However, the
MVA’s computer application form, which reflected an
earlier, repealed regulation that preceded the
applicable statutes, effectively inquired only whether
an applicant had a social security number, but not
whether the applicant was eligible for one. Mr.
Geppert had accurately responded only that he did
not have a social security number, without certifying
anything as to his eligibility for obtaining one. Mr.
Geppert requested a hearing to contest the MVA’s
denial of his application.

2

The MVA has delegated the conduct of
hearings and the authority to render a final
behalf to
administrative
decision
on
its
administrative law judges (“ALJ”s) in the Office of
Administrative Hearings. At the hearing in Mr.
Geppert’s case, the ALJ concluded that Mr. Geppert
had not complied with the statutory requirement to
provide a social security number. However, the ALJ
ordered that a learner’s permit be issued to him,
apparently based on the ALJ’s belief that the
repealed regulation, on which the computer
application was based, was still in effect and
trumped the statutes. The MVA did not seek judicial
review of the ALJ’s final administrative decision.
Mr. Geppert brought a judicial enforcement
action under the State Administrative Procedure Act
(“APA”) and requested a writ of mandamus to enforce
the ALJ’s ruling. The Circuit Court concluded that
the ALJ’s decision was based on an incorrect legal
premise and held that Mr. Geppert did not have a
“clear legal right” to the relief he requested. On
appeal, the Court of Special Appeals reversed,
holding that the Circuit Court was barred from
considering the legal soundness of the ALJ’s decision.
In our view, a circuit court asked to enforce an
administrative order based on a final administrative
decision under the APA is not precluded from
considering whether the relief ordered would violate
the law on which the administrative decision is
based. Accordingly, we reverse the decision of the
Court of Special Appeals.

A.

I
Legal Background
Obtaining a Driver's License in Maryland

3

The Maryland Vehicle Law
The Maryland Vehicle Law is part of the
Transportation Article (“TR”) of the Maryland Code
and is administered by the MVA.1 Pertinent to this
case, the General Assembly has directed the MVA, in
administering that law, to “examine and determine
the legality of each application made to it under the
Maryland Vehicle Law” and to reject an application,
if not satisfied as to its legality. TR §12-106. The
MVA is authorized to adopt regulations and create
necessary forms to carry out that law. TR §§12104(b), 12-105. The regulations that the agency has
adopted for implementing the Maryland Vehicle Law
are codified in Subtitles 11 through 23 of Title 11 of
the Code of Maryland Regulations (COMAR).
Regulating Drivers
The authority to operate a motor vehicle on a
public road in Maryland is governed by Title 16 of
the Maryland Vehicle Law. To do so legally, an
individual must either (1) have a Maryland driver’s
license issued pursuant to Title 16; (2) be expressly
exempted in Title
16 from the licensing
requirement;2 or (3) be otherwise specifically
authorized by Title 16 to drive a specific class of
vehicle.3 TR §16-101(a). This case concerns one of the
1 The Maryland Vehicle Law consists of titles 11 through 27 of
the Transportation Article. TR §11-206.
2 The exemptions from the licensing requirement are set forth
in TR §16-102. An example is an out-of-State resident who is
licensed to drive by the State of residence and who meets
certain criteria. TR §16-102(a)(9).
3 An example of an individual specifically authorized by Title 16
to drive a specific class of vehicle without a Maryland driver’s
license is a driver of a commercial motor vehicle who holds a
commercial driver’s license from another State and meets

4

requirements for satisfying the first of these
alternatives under Title 16 - obtaining a Maryland
driver’s license.
An individual can begin the process for
obtaining a Maryland driver’s license, upon reaching
the age of 15 years and nine months, by applying for
a learner’s instructional permit as a precursor to a
driver’s license.4 TR §§16-103(c)(1), 16-105. To do so,
the applicant must complete an application for a
driver’s license provided by the MVA that asks for
information required by the relevant provisions of
Title 16, pass a vision test, and pay the requisite fee.
TR §§16-105(a), 16-106, 16-110. As a prerequisite to
obtaining a learner’s permit, the applicant must also
take an exam administered at an MVA office. TR
§16-110; COMAR 11.17.05.09. Upon reaching the age
of 16 years and six months and meeting certain
criteria, a holder of a learner’s permit may obtain a
provisional license. TR §§16-103(c)(2), 16-111.
Applications for Licenses and
the SSN Requirement
The information that an applicant must
provide in an application for a driver’s license - and
for a learner’s permit en route to a license - is
specified in TR §16-106 and related regulations. For
example, the applicant must provide the applicant’s
full name and address, certain demographic
information (race, sex, height, weight, general
physical condition, date of birth), proof of age and
identity, and information about prior licenses held or
applied for. Pertinent to this case, an applicant must
certain criteria. TR §16-809.
4 A learner’s permit falls within the general rubric of a license
under the Maryland Vehicle Law. TR §ll-128(a)(2)(ii).

5

also provide:
(1) Satisfactory documentary evidence that the
applicant has a valid Social Security number
by presenting the applicant’s Social Security
Administration account card or, if the Social
Security Administration account card is not
available [any of several specified documents
bearing the Social Security number]; or
(2) Satisfactory documentary evidence that the
applicant is not eligible for a Social Security
number.
TR §16-106(c). We shall refer to this condition for
obtaining a license as the “SSN requirement.”5
5 An applicant for a Maryland driver’s license has been required
to provide the applicant’s social security number as part of the
application for several decades, although the precise
requirement has changed over the years in response to two
federal laws. In 1988, the MVA first adopted a regulation
requiring disclosure of an applicant’s social security number or
a certification that the applicant did not have a social security
number. 15:5 Md. Reg. 622 (Feb. 26, 1988) (Final Action
adopting COMAR 11.17.02.02).
In 2003, to ensure that the State continued to qualify
for funding under a federal law that required States to collect
social security numbers in connection with licensing for the
purpose of enforcing child support obligations, the General
Assembly incorporated that requirement in statute. Chapter
452, Laws of Maryland 2003; see also 42 U.S.C. §666(a)(13); TR
§16-203 (providing for suspension of a driver’s license of one
who is delinquent on child support obligations).
Two years later, the federal REAL ID Act of 2005 was
enacted, requiring a State to collect information concerning an
applicant’s social security number in order for a driver’s license
to be adequate identification to enter a federal building or to
board an airplane. Pub.L. 109-13, title II, §202(c), 119 Stat. 31213. To allow Maryland licenses to comply with the REAL ID
Act, the General Assembly amended Maryland law to require a
license applicant to provide a valid social security number or

6

In addition to requiring an applicant to take
certain affirmative steps - such as satisfying the
SSN requirement - to obtain a driver’s license, the
Maryland Vehicle Law expressly prohibits the MVA
from issuing a driver’s license, or a learner’s permit
en route to a license, if the applicant fails to qualify
for the license for a number of enumerated reasons.
TR §16-103.1. Among those reasons is an applicant’s
failure to satisfy the SSN requirement. TR §16103.1(11). That provision States that the MVA “may
not issue a driver’s license to an individual ... who
does not [satisfy the SSN requirement],” in language
essentially identical to that of TR §16-106(c) quoted
above. In the Maryland Code, the verb phrase “may
not” is defined to have “a mandatory negative effect
and establishes a prohibition.” Maryland Code,
General Provisions Article, §1-203. TR §16-103.1(11)
thus bars the agency from issuing a license to one
who fails to satisfy the SSN requirement.
B.

Administrative Hearings
Maryland Vehicle Law

under

the

proof that the applicant was ineligible for a social security
number - what we refer to in this opinion as the SSN
requirement. Chapter 390, §2, Laws of Maryland 2009. As
explained later in the text of this opinion, the MVA immediately
adopted a regulation to reflect the SSN requirement based on
the REAL ID Act, but did not repeal the prior regulation for a
couple of years. The SSN requirement is essentially unchanged
since 2009.
Maryland law allows for the issuance of driver’s licenses
that are not compliant with the REAL ID Act and SSN
requirement, but only for applicants who cannot prove lawful
status in the United States. TR §16-122(a). This second tier
driver’s license does not pertain to this case as there is no
dispute that Mr. Geppert is a United States citizen.

7

Title 16 of the Maryland Vehicle Law provides
for an administrative hearing in certain
circumstances where the MVA refuses to issue or
renew a driver’s license, suspends a license, or
revokes a license. TR §16-206. The MVA is to provide
such a hearing pursuant to the hearing provisions of
the Maryland Vehicle Law. See TR §12-201 et seq.66
That statute generally requires the MVA to provide
notice and a prompt hearing following a request for
one. TR §12-203. The hearings are to be conducted in
accordance with the contested case procedures set
forth in the APA, Maryland Code, State Government
Article (“SG”), §10-201 et seq. With respect to
hearings concerning driver’s licenses, the MVA is to
render a decision within 30 days of the hearing. TR
§12-203(b)(3).
As permitted by statute, the MVA has, by
regulation, delegated to the Office of Administrative
Hearings the authority to conduct hearings on the
MVA’s behalf under the Maryland Vehicle Law,
including hearings concerning driver’s licenses. See
TR §12-104(e); COMAR 11.11.02.07. That delegation
authorizes the ALJ who conducts the hearing to issue
a final decision and order on behalf of the MVA.
COMAR 11.11.02.07A.
Once an ALJ has issued a final decision on
behalf of the MVA, judicial review of that decision is
available in a circuit court pursuant to the judicial
review provision of the APA and the Maryland Rules.
TR §12-209(b); SG §10-222; Maryland Rule 7-201 et
seq. A party may also seek enforcement of an
administrative order under the APA by filing an
6 In some instances, the Maryland Vehicle Law limits the issues
that can be raised during the hearing. See, e.g., TR §16205.1(f)(7)(i), §16-206.(d)(3).

8

action in the circuit court in which the party requests
declaratory or injunctive relief, or a writ of
mandamus. SG §10-222.1.
For most actions brought under the APA, an
appeal from a circuit court decision ordinarily takes
the usual route to the Court of Special Appeals. SG
§10-223. However, there is an exception for cases
arising under Title 16 of the Maryland Vehicle Law.
SG §10-223(a)(l). In cases subject to that exception,
any further review is not in the Court of Special
Appeals, but rather by a petition for a writ of
certiorari in this Court. Maryland Code, Courts &
Judicial Proceedings Article (“CJ”), §12-305. As we
shall see, the route of appeal from a circuit court
decision in an enforcement action brought under SG
§10-222.1 that arises under Title 16 of the Maryland
Vehicle Law is a matter of debate in this case.
II
Facts and Proceedings
The basic facts and procedural path of this case are
undisputed.7
A.

Mr. Geppert Applies for a Learner’s
Permit

7 In presenting the relevant materials to us, the parties have
distributed them over four separate appendices and a copy of
the record extract that was filed in the intermediate appellate
court. This suggests that there may have been a lack of
cooperation between counsel. We will not attempt to assign
blame for this situation and, in any event, we have reviewed the
original record for purposes of this opinion. We simply note that
future litigants will earn the undying appreciation of an
appellate court if they can successfully consolidate relevant
materials from the record in an agreed-upon record extract, as
encouraged by Maryland Rule 8-501.

9

During 2012, Mr. Geppert reached the age of
15 years and nine months and, like most teenagers
his age, sought to obtain a learner’s permit as a
prerequisite to obtaining a driver’s license. He
apparently made multiple attempts to obtain a
learner’s permit from the MVA beginning in March
2012. However, those efforts proved unsuccessful as
Mr. Geppert did not have a social security number.8
This case is based on an attempt Mr. Geppert
made on November 6, 2013, when he went to the
MVA office in Glen Burnie to complete the license
application and to take the required exam. To
complete the application, Mr. Geppert responded to a
computer form that asked him, among other things,
to certify “that I do not have or I am not eligible for a
social security number.” As is evident from the
discussion in the previous section of this opinion,
that question was inconsistent with the . SSN
requirement in TR §16-103(c) and TR §16-103.1(11),
as it did not require an applicant who lacked a social
security number to certify that he or she was
ineligible to have one. To be consistent with the
governing statutes, the application should have
asked an applicant to certify “that I do not have and
I am not eligible for a [social security number].”9 In
any event, Mr. Geppert checked the box next to the
8 It appears from the record that Mr. Geppert has never applied
for a social security number; nor did his parents apply for a
social security number for him. It appears to be a matter of
principle for the Gepperts. In an email to one of his son’s former
counsel that appears in the record, Mr. Geppert’s father Stated
that “We have planned and been in this fight for 17 yrs. We are
not giving up the fight.”
9 The MVA later corrected this part of the computer application
form to substitute the conjunction “and” for the conjunction “or.”
See footnote 19 below.

10

existing question on the computer form, which
effectively certified only that he did not have a social
security number, but was ambiguous as to his
eligibility for one.
The MVA promptly denied Mr. Geppert’s
application at the time he made it in the Glen Burnie
office. The agency immediately provided him with a
form letter stating that it could not process his
application because he had failed to satisfy the SSN
requirement. The form letter recited that he had the
right to request a hearing within 15 days.10
10 We note in passing that it is not entirely clear on what basis
Mr. Geppert was entitled to a hearing. The provision cited in
the denial letter - TR §12-203 - does not itself grant a right to
hearing, but rather governs the notice and timing of hearings
when "the Maryland Vehicle Law or a rule or regulation of the
[MVA] provides that an applicant or licensee may request a
hearing on refusal, suspension, or revocation of a license or
privilege.” (emphasis added). Various sections in the Maryland
Vehicle Law provide for a hearing when a license is suspended,
revoked, or refused. An applicant who is refused a license has a
right to a hearing in six circumstances enumerated in TR §16206(a)(1). TR §16-206(d)(l) (right to a hearing if applicant is
refused a license for reasons set forth in TR §16-206(a)(l)).
None of those provisions pertains to Mr. Geppert’s situation.
In this case, the statute on which the denial was based,
TR §16-103.1(11), simply States that the MVA may not issue a
driver’s license to an individual “[w]ho does not provide ... a
valid Social Security number ... or [satisfactory documentary
evidence that the applicant is not eligible for a Social Security
number.” No provision is made for an administrative hearing in
that statute if an applicant is refused a license for failure to
comply with that requirement. This Court has previously held
that a license applicant is not entitled to an administrative
hearing when the MVA denies the application pursuant to
another subsection of TR §16-103.1 that bars the MVA from
issuing a license to one whose license to drive is revoked,
suspended, refused, or cancelled in another State. Headen v.

11

The Administrative Hearing
Mr. Geppert’s father made a timely request
through counsel11 for a hearing on the denial of Mr.
Geppert’s November 2013 application. The hearing
was held on April 1, 2014.12 At the hearing, the ALJ
reviewed documents submitted by the MVA, which
did not otherwise appear at the hearing. Mr. Geppert
appeared at the hearing with his father.13

B.

MVA, 418 Md. 559 (2011). In that case, the Court observed that
TR §16-103.1 itself does not grant the right to a hearing, nor did
any other provision of the Maryland Vehicle Law or regulations.
418 Md. at 580-83.
We are not aware of any statute or regulation that
provides a right to a hearing for an applicant who fails to satisfy
the SSN requirement. It is notable that the transmittal to the
Office of Administrative Hearings for the hearing listed the case
type as “cancellation” and some of the citations related to
circumstances in which a license is refused because the
apphcant made a false Statement in the application - a
circumstance, though not applicable to Mr. Geppert, that would,
entitle the apphcant to a hearing in some circumstances under
TR §16-206(a)(l)(vi) and which caused the AU some initial
confusion as to the nature of the hearing she was supposed to
conduct.
In the end, the fact that the MVA may have provided
Mr. Geppert with more process than he was due is not a reason
for disregarding the AU’s decision — and the MVA
appropriately has not made such an argument.
11 Counsel was discharged before the hearing and Mr. Geppert
appeared at the hearing pro se with his father.
12 In the interim between the denial on November 6, 2013, and
the hearing, Mr. Geppert made at least one additional attempt
to procure a learner’s permit at the Westminster MVA office,
but was unsuccessful.
13 At the outset of the hearing, Mr. Geppert’s father Stated that
he would be representing his son at the hearing. Consistent
with SG §9-1607.1 and §10-206.1, the ALJ advised Mr.
Geppert’s father that, because he was not an attorney, he could

12

Included among the documents provided by
the MVA was a letter that Mr. Geppert had
submitted to the MVA from the Social Security
Administration stating that the federal agency had
no record that a social security number had been
assigned to Mr. Geppert. The ALJ asked why Mr.
Geppert lacked a social security number. His father
replied that federal law did not require him to obtain
one.
The ALJ then reviewed the Maryland Vehicle
Law and observed that, under that law, one of the
prerequisites for obtaining a Maryland driver’s
license was compliance with the SSN requirement.
She opined that, because Mr. Geppert failed to
satisfy the SSN requirement, the MVA was
precluded from issuing him a license and that she
had no discretion to order it to do otherwise.
Mr. Geppert’s father then provided the ALJ
with a copy of an MVA regulation that he had found
in COMAR that described the SSN requirement
differently from the statute, but consistently with the
computer application . form. The copy of the
regulation provided by Mr. Geppert’s father —
denominated COMAR 11.17.12.02 - simply required
that the applicant provide the applicant’s social
security number or certify that the applicant does not
have a social security number.14 As noted above, the
not represent his son at the hearing. However, she swore in
both father and son as witnesses and, in the relatively informal
context of the administrative hearing, interacted primarily with
the father.
14 That regulation read:
A. The Administration shall request the social security
number of each applicant for an original, renewed, duplicate, or
corrected driver’s license or identification document.

13

use of the disjunctive “or” in that regulation
appeared to indicate that a certification that an
applicant simply does not have a social security
number was a permissible alternative to providing
the social security number on the application. This,
of course, would be contrary to TR §16-103.1(11) and
§16-106(c), in which the only alternative that an
applicant has to providing a social security number is
to demonstrate that the applicant is not eligible for
one.
The ALJ immediately recognized the
discrepancy between the statutes and the regulation
provided by Mr. Geppert’s father. The ALJ noted
that “the language of the statute is stricter” than
that of the regulation and Stated that she was
confronted with “two competing pieces of black letter
law.” After Mr. Geppert himself affirmed that the
certification he had made on the computer at the
MVA office was consistent with the regulation his
father had presented, the ALJ opined that “if that’s
good enough for them ... that’s up to them.”
Observing that the regulation - and the computer
certification — was “more liberal” than the statute,
the ALJ said that she would follow the regulation
B. An applicant for a driver’s license shall disclose the
applicant’s social security number as required by 42 U.S.C.
§666. If the applicant does not have a social security number,
the applicant shall certify in the application that the applicant
does not have a social security number.
C. The administration shall deny the issuance of a
driver’s license for failure to disclose the required social security
number or to certify that the applicant does not have a social
security number.
D. The disclosure of the social security number is
voluntary for applicants for an identification document,
(emphasis added).

14

and that it would be up to the MVA to ensure that its
regulations and computer certifications were
consistent with the Maryland Vehicle Law.
Apparently unbeknownst to the ALJ or Mr.
Geppert’s father, the MVA had repealed the
regulation under discussion some years before Mr.
Geppert’s application.15 See 38:3 Md. Reg. 200 (Jan.
28, 2011) (Notice of Proposed Action of MVA to
repeal COMAR 11.17.12.02); 38:9 Md. Reg. 553 (Apr.
22, 2011) (Notice of Final Action of MVA repealing
COMAR 11.17.12.02). The explanation of that action
indicated that it was done “to reflect the current
statute” following the periodic Regulatory Review
and Evaluation Report of the relevant regulations.16
A different regulation, codified at COMAR
11.17.09.04A(5), had accurately reflected the SSN
requirement, consistently with the statute, since
2009.17 That regulation Stated, as it does today, that
15 It is difficult to fault the ALJ or Mr. Geppert’s father for their
ignorance of that repeal. According to the Internet archive
known as the Wayback Machine (https://archive.org/web/), the
extant compilation of Maryland regulations published by the
Division of State Documents, a unit of the Office of the
Secretary of State, in COMAR still reflected the repealed
regulation for some years after the MVA rescinded it. Moreover,
reconstructing the historical text of COMAR regulations is a
tedious and difficult exercise, as any Maryland law librarian
will attest. Even if the MVA itself was aware of the discrepancy,
the ALJ did not have the benefit of a live MVA representative
at the hearing. Indeed, the MVA did not point out that this
regulation had been repealed in 2011 until the case reached this
Court.
16 The Regulatory Review and Evaluation Act requires the
periodic systematic review of agency regulations to ensure,
among other things, that they “continue to be supported by
statutory authority and judicial opinions.” SG §10-132(l)(i)2.
17 See 36:14 Md. Reg. 995 (July 6, 2009) (Proposed Action to

15

“an applicant for a Maryland license ... shall provide
... [a social security number] or proof of ineligibility
for [a social security number].” However, that
regulation was not brought to the ALJ’s attention.
In any event, for reasons that are not evident
in the record, the Division of State Documents, the
State agency responsible for publishing COMAR, had
apparently continued to include the rescinded
regulation in its print and online compilation of
COMAR.18 Likewise, the MVA’s computer application
form that was in effect at the time that Mr. Geppert
applied for a learner’s permit also apparently
continued to reflect the rescinded regulation.19
Having decided that the regulation presented
to her superseded the statute, the ALJ ruled in Mr.
Geppert’s favor and ordered the MVA to issue a
learner’s permit to him. The ALJ advised both
Gepperts that the MVA might seek judicial review of
her decision in a circuit court. Immediately after the
ALJ issued her decision, Mr. Geppert sought to
implement the ALJ’s order later that day at an MVA
office, but the MVA declined to issue a learner’s
permit or allow him to take the learner’s permit
adopt COMAR 11.17.09); 36:22 Md. Reg. 1724 (Oct. 23, 2009)
(Final Action to adopt COMAR 11.17.09).
18 This appears to have continued until the MVA repealed, in
early 2018, the entire chapter in which this regulation
appeared. 45:1 Md. Reg. 37 (Jan. 5, 2018) (Proposed Action to
repeal COMAR 11.17.12); 45:5 Md. Reg. 286 (Mar. 2, 2018)
(Final Action to repeal COMAR 11.17.12).
19 The computer application form was subsequently corrected to
be consistent with the statute. A screen shot of the revised form
submitted by the MVA in the Circuit Court in 2017
demonstrated that the form had been revised to require an
applicant to certify “that I do not have and I am not eligible for
a social security number.” (emphasis added).

16

exam because of his failure to satisfy the SSN
requirement.
Apart from the reliance on a rescinded
regulation contrary to an existing statute, there was
another problem with the ALJ’s order on its face.
Even if one were to give the rescinded regulation
precedence over the statute, surmounting the SSN
requirement hurdle only entitled Mr. Geppert to take
the learner’s permit exam and take additional steps
required for a learner’s permit. It would not itself
entitle him to a learner’s permit, as the ALJ had
ordered.20 See COMAR 11.17.05.09.
Mr. Geppert apparently made no further effort
to try to implement the ALJ’s decision for nearly a
year.21 For reasons that are not evident in the record,
the MVA did not pursue judicial review of the ALJ’s
decision in the meantime.

c.

The Judicial Enforcement Proceeding
On March 27-, 2015, almost a year after the
ALJ’s decision, Mr. Geppert filed a pro se
enforcement action under the APA in the Circuit
Court for Baltimore County against the MVA and
various MVA officials asking that the court issue a
writ of mandamus to compel the MVA to allow him to
take the learner’s permit exam “and issue him a
learner’s permit or driver’s license (whichever is
appropriate).” The MVA answered the complaint,
contending that Mr. Geppert did not have a clear
legal right to the relief that he sought and that, in
any event, issuance of a learner’s permit to him
20 Mr. Geppert has conceded that he needs to pass the exam
before he would be entitled to a learner’s permit.
21 Mr. Geppert applied to the MVA in March 2015 to take the
learner’s permit exam, but was rebuffed again.

17

would violate State law.22
The Circuit Court held a brief hearing in
October 2015 at which the MVA and Mr. Geppert,
now represented by new counsel, jointly asked to set
a briefing schedule to be followed by oral argument.
The Circuit Court acceded to the request. After some
delay and a temporary dismissal of the action for
failure to prosecute,23 the parties filed their
respective memoranda during the second half of 2017
and the Circuit Court heard argument on December
17, 2017.
In a memorandum opinion dated April 5, 2018,
the Circuit Court reasoned that, to be entitled to a
writ of mandamus, Mr. Geppert was required to
show a clear legal right to the relief he sought. The
court found that TR §16.103.1(11) was “clear and
unambiguous” in prohibiting the issuance of a license
or learner’s permit to an applicant who did not
satisfy the SSN requirement. The court concluded
that, as Mr. Geppert had not established that he had
satisfied that requirement, he failed to meet the
threshold for mandamus relief. It held that the ALJ’s
order that the MVA issue a learner’s permit was
22 This case was captioned in the Circuit Court and the Court of
Special Appeals listing one of the MVA officials as the lead
defendant, although that individual had long since departed
that post and the defendants’ counsel had filed an appropriate
substitution of defendant under Maryland Rule 2-241(a)(5).
Before us, the parties have listed the agency as the lead
defendant in the caption and we have done the same, as all of
the defendant officials were named only in their official
capacities.
23 The complaint was dismissed for lack of prosecution at the
end of 2016 pursuant Maryland Rule 2-507(c). The Circuit
Court later struck that dismissal. Mr. Geppert thereafter
obtained new counsel and the litigation proceeded.

18

contrary to the statute and denied the request for
mandamus relief. Mr. Geppert subsequently filed a
motion to alter or amend the judgment, which the
court also denied.
D.

The Appeal
Mr. Geppert appealed to the Court of Special
Appeals. Shortly after the appeal was filed, the MVA
asked the intermediate appellate court to dismiss the
appeal or, in the alternative, to transfer it to this
Court pursuant to Maryland Rule 8-132 on the
ground that the Court of Special Appeals lacked
appellate jurisdiction over this type of case. On July
6, 2018, the Court of Special Appeals denied the
motion without explanation in a brief order and the
appeal proceeded in that court. In the brief it
subsequently filed, the MVA reiterated its request
that the appeal be transferred to this Court under
Rule 8-132.
In an unreported decision, the Court of Special
Appeals reversed the Circuit Court. Geppert v.
Chaffee, 2019 WL 4233845 (Md. Ct. Spec. App. Sept._
6, 2019). The intermediate appellate court concluded
that, regardless of the legal merits of the MVA’s
position, the ALJ’s decision was a final
administrative order that was binding on the MVA
because the agency had not sought judicial review of
the order. Id. at *5-6. Citing its prior decision in
Karabetis v. Mayor- & City Council of Baltimore, 72
Md. App. 407 (1987), the Court of Special Appeals
reasoned that the ALJ’s order should be treated as
an “enrolled judgment” for purposes of res judicata.
Geppert, supra, at *7.
The Court of Special Appeals, nevertheless,
revised the relief provided by the ALJ’s order and

19

devoted the largest part of its opinion to explaining
that revision. Geppert, 2019 WL 4233845 at *14-21.
While the ALJ had ordered the MVA to issue a
learner’s permit, the intermediate appellate court
held that Mr. Geppert was entitled only to take the
exam for a learner’s permit. The court noted that the
ALJ may have been confused by the MVA’s
documentation and that Mr. Geppert himself was not
trying to circumvent the exam requirement. Despite
the literal language of the ALJ’s order, the MVA
would be required to issue Mr. Geppert a learner s
permit under the Maryland Vehicle Law only if he
passed the exam. The intermediate appellate court
declined to say whether Mr. Geppert would be
entitled to either a provisional or full driver’s license,
should he apply for one in the future. Id. at *1 n.l.
Lastly, the Court of Special Appeals explained
its decision not to dismiss the appeal. The court
concluded that the relevant statutes provided a route
of appeal to the intermediate appellate court from a
circuit court decision in an action under the APA to
enforce an administrative order concerning a driver’s
license. The court distinguished actions to review an
administrative order under the APA concerning a
driver’s license, which it agreed were not appealable
to the Court of Special Appeals, from an enforcement
action such as Mr. Geppert had brought. While the
court did not explicitly address the MVA’s request
that it transfer the appeal to this Court under Rule
8-132, its reasoning implicitly supported a denial of
that request.
The MVA filed a petition for a writ of
certiorari, which we granted.
Ill

20

Route of Appeal
We begin where the Court of Special Appeals
ended - whether this appeal should have been
dismissed or directed to this Court in the first
instance. As noted above, the MVA argues that Mr.
Geppert should have sought a writ of certiorari from
this Court rather than pursue an appeal of right in
the Court of Special Appeals and that, accordingly,
the intermediate appellate court should have either
dismissed the appeal or transferred the case to us
rather than decide the appeal itself.
In our view, dismissal of the appeal was not
appropriate, but the case should have been
transferred to this Court to be treated as a petition
for a writ of certiorari. Nevertheless, the detour
through the Court of Special Appeals is of no
consequence. The case is now in this Court, as we
have found the substantive issue worthy of a grant of
certiorari and, given that the decision of the
intermediate appellate court is not entitled to
deference in this context, it does not skew our
assessment of the merits.24 We discuss the question
of the route of appeal for future guidance.
24 The MVA suggests that, because the Court of Special Appeals
lacked jurisdiction to hear this appeal, we should dismiss the
appeal - presumably after vacating the intermediate appellate
court’s decision. However, a more appropriate disposition, in a
technical sense, would be to vacate that decision and remand
the case to the Court of Special Appeals to take the alternative
action originally sought by the MVA - a transfer of the appeal
to this Court under Maryland Rule 8-132 to be considered as a
petition for a writ of certiorari. However, we have already found
the substantive issue raised in this appeal to meet the standard
for granting a writ of certiorari and the only difference in such a
boomerang remand to the Court of Special Appeals would be the
reversal of the roles of petitioner and respondent before us.

21

As outlined above, this appeal concerns a
ruling in a contested case proceeding under the APA
that arose under Title 16 of the Maryland Vehicle
Law. The complaint was brought under SG §10-222.1
of the APA and sought an order of mandamus from
the Circuit Court to enforce an administrative order
resulting from that proceeding.
The APA ordinarily provides, in SG §10-223, a
further right of appeal to the Court of Special
Appeals for actions brought in a circuit court under
the APA - which could be either an action to review
an administrative decision (brought under SG §10222) or an action to enforce an administrative
decision (brought under SG §10-222.1). However,
there is an exception to that general rule that
pertains to this appeal. SG §10-223(a)(l) excludes
from the jurisdiction of the Court of Special Appeals
“a case that arises under Title 16 of the [Maryland
Vehicle Law] unless a right of appeal to the Court of
Special Appeals is specifically provided.” Title 16, of
course, concerns the authorization to drive a motor
vehicle in Maryland, including the issuance of
Maryland driver’s licenses.
There is no question that this case arises
under Title 16 and regulations issued under Title 16,
which are cited several times in the complaint and
which were the basis of the administrative order that'
Mr. Geppert seeks to enforce. Thus, this case falls
within the exception to the general rule allowing
circuit court decisions under the APA to be appealed
to the Court of Special Appeals.25 Mr. Geppert does
25 Now adopting the rationale of the Court of Special Appeals,
Mr. Geppert argues that the exclusion in SG §10-223(a)(l) does
not apply to his appeal because (1) the complaint in this case

22

not cite any authority that allows for an appeal of
this specific type of case to the Court of Special
Appeals — the exception to the exception in SG §10223(a)(1) - and we are aware of none.
Given that appellate jurisdiction in Maryland
is defined by statute,26 under the exclusion in SG
§10-223(a)(l), there would be no further appellate
review beyond the Circuit Court unless another
statute provides for such review.27 The General
was based on common law mandamus and (2) the AU’s order
meant that “there were no remaining unresolved issues under
Title 16.” However, neither rationale holds up under scrutiny.
First, as noted earlier, the complaint was explicitly brought
under SG §10-222.1 of the APA - and appropriately so, as it
sought to enforce an order from a proceeding conducted under
the APA. Second, the decision of the ALJ is not a free-floating
order untethered to any other law. It directed the MVA to issue
a learner’s permit to Mr. Geppert under Title 16 of the
Maryland Vehicle Law. As that order was later re-interpreted
by the Court of Special Appeals, Mr. Geppert seeks to compel
the MVA only to allow him to take the learner’s permit
examination. But, as Mr. Geppert notes in his brief, this “non­
discretionary function” that he is seeking to compel the MVA to
carry out is based on TR §16-110.
26 Pack Shack, Inc. u. Howard County, 371 Md. 243, 247 (2002)
(“The right to appeal in this State is wholly statutory.”).
27 Indeed, that was the case prior to 1985, as the General
Assembly had not provided for any appellate jurisdiction
beyond a circuit court for cases under the Maryland Vehicle
Law. That year, in response to a concern that statutory and
constitutional questions arising from those cases should be
resolved consistently, the Legislature enacted a route of appeal
for such cases to this Court via a writ of certiorari. Chapter 364,
Laws of Maryland 1985; see MVA v. Lindsay, 309 Md. 557, 560
(1987). The exclusion in SG §10-223(a)(l), and the assignment
of appellate jurisdiction in such cases to the Court of Appeals,
was later narrowed from the entire Maryland Vehicle Law to
Title 16 alone. Chapter 59, Laws of Maryland 1993.

23

Assembly has provided a route of appeal for cases
arising under Title 16. In particular, CJ §12-305
provides for certiorari review by this Court of a final
judgment in a circuit court “on appeal from an
administrative decision under Title 16 of the
Transportation Article.” Mr. Geppert suggests that
the reference to “appeal” in CJ §12-305 means that it
applies only to actions to review an administrative
decision brought under SG §10-222, but not to
actions to enforce an administrative decision brought
under SG §10-222.1. Given the exclusion in SG §10223(a)(1), that argument, however, would leave a
litigant without any route to appeal a circuit court
decision in a case like this. In any event, we do not
construe CJ §12-305 as narrowly as Mr. Geppert
suggests.
Mr. Geppert’s notice of appeal sought review
in the Court of Special Appeals rather than a writ of
certiorari from this Court. When a litigant seeking to
appeal a circuit court decision directs its appeal to
the wrong appellate court, but there is jurisdiction in
another appellate court, Maryland Rule 8-132
provides a solution. The court in which the appeal
has been incorrectly filed “shall not dismiss the
appeal but shall instead transfer the action to the
court apparently having jurisdiction.” This Court
frequently receives transfers from the Court of
Special Appeals under this rule in cases for which CJ
§12-305 specifies the route of appeal. E.g., Cane v.
EZ Rentals, 450 Md. 597, 609-10 & n.10 (2016);
Stachowski v. State, 416 Md. 276, 280-81 (2010).
While this appeal has arrived in this Court by
a somewhat unusual route, the substantive issue
remains the same as if the case had come here via a

24

transfer under Rule 8-132. Accordingly, we will
proceed to address that issue.
IV
The Merits
This appeal raises the question whether, in an
action under SG §10-222.1 of the APA to enforce a
final administrative order, a circuit court is bound by
the ALJ’s decision to direct an agency to take an
action that the Legislature has specifically directed
the agency not to take because the agency did not
first seek judicial review of the administrative
decision under SG §10-222. Resolution of this
question involves considerations of administrative
law, finality, the concept of issue or claim preclusion,
the nature of an enforcement action seeking an order
of mandamus, and separation of powers.
Standard of Review
In seeking enforcement of the ALJ’s decision
under SG §10-222.1, Mr. Geppert asked for a writ of
mandamus. The authority to issue a writ of
mandamus rests in the “sound discretion” of the
court. Philip Morris Inc. v. Angeletti, 358 Md. 689,
708 (2000). It is available only when (1) the action
sought to be compelled is a ministerial, non­
discretionary duty of the defendant and (2) the
plaintiff has a clear legal right to that action.
Baltimore County v. Baltimore County Fraternal
Order of Police, 439 Md. 547, 569-71 (2014).
- At first glance, it appears almost trite to say that a
circuit court has exercised “sound discretion” when it
declines to order an administrative agency to violate
__ the statute that the agency administers. In this case
the proposed order would direct the MVA to allow
A.

25

one who does not qualify under TR §16-106(c) for a
license to take the exam for a learner’s permit and, if
he should pass that exam, to violate the express
prohibition of TR §16-103.1(11) by providing him
with a learner’s permit or license.
The failure of the MVA to seek judicial review
of the final administrative decision, however, makes
this a more complicated question. Is the ALJ’s
decision that the regulation (later revealed to have
been repealed) trumps the statute entitled to
preclusive effect in the enforcement proceeding? That
is a legal question. When the court’s action turns on
a legal issue, even in a mandamus case, review is
conducted without deference to the circuit court.
Hughes v. Moyer, 452 Md. 77, 91 (2017). As has been
often pointed out, a circuit court must exercise its
discretion in accordance with correct legal standards.
Faulkner v. State, 468 Md. 418, 460 (2020); Wilson-X
v. Department of Human Resources, 403 Md. 667, 675
(2008). Accordingly, we will consider this question
without deference to the legal conclusions of the
Circuit Court or of the Court of Special Appeals.
Whether a Legal Determination Made in
the ALJ’s Final Administrative Decision
Is Binding in a Judicial Enforcement
Action
The MVA asserts that the ALJ’s legal decision
that a regulation could supersede the prohibition in
TR §16-103.1(11) was flatly wrong. It argues that the
Circuit Court should not be directed to order the
agency to issue a learner’s permit to Mr. Geppert, an
action clearly contrary to the statute, or even to allow
him to take the learner’s permit exam.

B.

26

For his part, Mr. Geppert argues that the
Circuit Court had no choice but to issue a writ of
mandamus on his behalf. Alluding to phrases used by
the Court of Special Appeals in its opinions in this
case and in Karabetis v. Mayor and City Council, 72
Md. App. 407 (1987), he asserts that the ALJ’s
decision was binding on the Circuit Court as a “final
judgment” or “enrolled judgment” and that the
MVA’s position amounts to an “impermissible
collateral attack” on such a judgment. Respondent’s
Brief at pp. 15-16. He relies on the concepts of res
judicata and collateral estoppel - also known as
claim and issue preclusion.28
Relation of the Administrative Decision to the
1.
Enforcement Action
“Final Judgment” and “Enrolled Judgment”
To be precise, the ALJ’s decision is not a
“judgment” in the usual sense. Although the ALJ’s
title includes the word “judge” and the transcript of
the administrative hearing identifies the speaker as
“the Court” when the ALJ speaks, the ALJ is not
part of the judicial branch and her decision was not a
court judgment. Rather, it was the final
administrative decision of an executive branch
agency. When she rendered her decision, the ALJ
was acting as the MVA’s final decision maker
pursuant to the delegation by the MVA. If the MVA
had not delegated its hearings and final decision
making in this type of case to the Office of
Administrative Hearings, the MVA Administrator (or

28 See, e.g., Cosby v. Dep’t of Human Resources, 425 Md. 629,
639 (2012).

27

other delegee) would have authored the final
administrative decision.29
A final agency decision - whether issued by an
ALJ or an executive branch official — is “final”
administratively the day it is issued. See SG §10-221
(final decisions under the APA). It does not matter
whether or not a party has sought judicial review of
that decision under SG §10-222 or judicial
enforcement of that decision under SG §10-222.1.
The concept of an “enrolled judgment,” which does
not appear in the APA, appears to refer to the
process that a court clerk undertakes in entering and
indexing a judgment of a court.30
It is true that neither party to the
administrative proceeding here filed an action for
judicial review of the ALJ’s decision pursuant to SG
29 The law does not require the MVA to delegate final decision
making authority to an ALJ. SG §10-205(b) (agency may
delegate to the Office of Administrative Hearings authority to
render proposed or final decisions and orders). Not all agencies
do so. Even if an agency delegates authority for an ALJ to
render a proposed decision, it may retain authority to consider
exceptions to that decision, accept or reject the ALJ’s proposed
decision, and render the final administrative decision itself. See
SG §§10-220, 10-221; see also, e.g., COMAR 02.02.06.07
(delegation of authority to the Office of Administrative
Hearings to conduct hearings under the Maryland Securities
Act); Maryland Securities Commissioner v. U.S. Securities
Corp., 122 Md. App. 574, 581 (1998) (proposed decision by ALJ
adopted in part and modified in part in final administrative
decision issued by agency).
so See Hagler u. Bennett, 367 Md. 556, 557, 563 (2002) (referring
to a civil judgment entered and recorded in a circuit court as an
“enrolled judgment”); Livingston v. Naylor, 173 Md. App. 488,
492 (2007) (referring to the fifing of an out-of-State judgment in
circuit court under the Uniform Enforcement of Foreign
Judgments Act as enrolling the judgment).

28

§10-222.31 The reference to the ALJ’s decision as a
“final judgment” or “enrolled judgment” by the
intermediate appellate court appears to be an effort
to incorporate the idea that the decision was not
reviewed by a court under that statute.
“Collateral Attack”
It does not seem quite accurate to refer to an
enforcement proceeding under SG §10-222.1 as
“collateral” to the administrative proceeding that
resulted in the administrative decision that the
plaintiff seeks to enforce. A brief review of the
history of that provision, a relatively recent addition
to the APA, is informative.
The enforcement action created in SG §10222.1 was added to the APA in 2000. Chapter 377,
Laws of Maryland 2000. According to materials in
the legislative bill file, it appears to have been the
brainchild of attorneys for AFSCME, a public
employee union, in late 1999. Letter of Keith J.
Zimmerman to Sue Esty, AFSCME Council 92
(November 24, 1999). At the next session of the
Legislature, House Bill 439 (2000), incorporating
that suggestion, was introduced. Every witness who
testified about the bill in both houses of the
Legislature - all of them in favor of the bill - was
affiliated with AFSCME.
In a letter to the chair of the Senate Judicial
Proceedings Committee, the union’s attorney
31 It was not only the MVA that disagreed with the ALJ’s
decision. In this appeal, Mr. Geppert has disagreed with the
ALJ’s conclusion that he failed to satisfy the statutory SSN
requirement, arguing that he was not eligible for a social
security number. See footnote 39 below.

29

explained that the provision was intended to provide
an “enforcement mechanism equivalent to that found
in [Federal Rule of Appellate Procedure] 15,” which
provides for both review and enforcement of
administrative decisions.32 Letter of Keith J.
Zimmerman to Senator Walter M. Baker re House
Bill 439 (March 27, 2000). The addition of SG §10222.1, in conjunction with the existing provision
concerning judicial review (SG §10-222), would fill
the perceived gap in the State APA.33 Id.
Interestingly, Federal Rule of Appellate
Procedure 15 does not presume that judicial review
of an administrative decision necessarily precedes an
action to enforce that decision and explicitly
contemplates both review and enforcement as part of
the same proceeding. Perhaps for similar reasons, SG
§10-222.1 does not require judicial review, or even an
opportunity for judicial review, as a prerequisite to
an enforcement action.34 In any event, the statute
32 Judicial review of administrative decisions is the subject of a
Federal Rule of Appellate Procedure because, under federal law,
an action for judicial review of a federal agency decision usually
begins in a federal court of appeals. A. Rochvarg, Principles and
Practice of Maryland Administrative Law (2011) at 159.
33 The Maryland APA had been based on the Model State
Administrative Procedure Act. See A. Rochvarg, supra, at 6.
Although not specifically mentioned in the legislative bill file for
House Bill 439, by the time of the 2000 amendment of the
Maryland APA, the Model Act had been revised to specifically
include a judicial enforcement provision like SG §10-222.1. See
15 Uniform Laws Annotated (2001 & 2020 Supp.), Model State
Administrative Procedure Act (1981), §5-201 et seq. It was
contemplated that a court in such a proceeding could consider
the legality of the administrative order that was sought to be
enforced. Id., §5-203(1).
34 As originally introduced, the 2000 bill would have delayed

30

itself does not address the extent to which the circuit
court in an enforcement action is bound by the
administrative decision. Case law relating to the
common law concept of issue preclusion is
informative.
Binding Effect of Administrative Fact Finding
and Legal Determinations
Even if one conceives of a judicial enforcement
proceeding as “collateral” to the administrative
decision that it seeks to enforce, the preclusive effect
of the administrative proceeding relates more to fact
findings than to the legal determinations of the
administrative decision maker.
Issue preclusion is a well-established common
law doctrine that bars parties from relitigating an
issue that was necessarily decided in a prior
adjudication by a final judgment on the merits after
the parties had an opportunity to fully litigate the
issue. Garrity v. Maryland State Bd. of Plumbing,
447 Md. 359, 368-69 (2016). A final decision of an
administrative agency can have a preclusive effect
when (1) the agency decision is based on a quasi­
judicial process; (2) the issue presented to the fact
finder in the second proceeding was fully litigated
before the agency in the first proceeding; and (3) the
resolution of that issue was necessary to the
disposition of the first proceeding. Garrity, 447 Md.
at 380.35 If those conditions are met, the agency’s
any enforcement action until after any judicial review
proceeding or the expiration of the deadline for seeking judicial
review. That limitation was eliminated from the bill as it passed
through the General Assembly.
35 At one time, the doctrine of issue preclusion was not applied

31

“findings” in the first proceeding are given preclusive
effect. Id. In discussing the concept of issue
preclusion, federal case law can be persuasive
authority. See id. at 368-80 (extended discussion of
two Supreme Court decisions).
When this Court has discussed issue
preclusion based on a prior administrative
proceeding, it has focused on the facts determined as
part of that proceeding. For example, in Garrity, this
Court held that the findings of the Consumer
Protection Division regarding a plumbing company’s
unfair and deceptive trade practices were entitled to
preclusive effect in a subsequent proceeding before
the Board of Plumbing. The Court repeatedly
referred to the agency’s role as the adjudicator of fact
in defining the scope of the holding. See Garrity, 447
Md. at 380; see also Batson v. Shiflett, 325 Md. 684,
701-07 (1992) (discussing whether fact findings made
in a prior federal administrative proceeding had a
preclusive effect on a factual determination to be
made by a jury in State court civil case); Murray Int’l
Freight Corp. v. Graham, 315 Md. 543, 545 (1989)
(discussing whether issue preclusion barred
to decisions of administrative agencies. Eventually it was
extended to administrative proceedings that are “the essential
equivalent of a judicial proceeding.” Sugarloaf Citizens Ass’n u.
Northeast Maryland Waste Disposal Auth., 323 Md. 641, 658
n.13 (1991) (quotation marks and citations omitted); see also
White v. Prince George’s County, 282 Md. 641, 658 (1978).
However, the doctrine does not apply to decisions resulting from
less formal administrative proceedings. See Maryland Dep’t of
Educ. u. Shoop, 119 Md. App. 181 (1998) (declining to accord
preclusive effect to administrative proceeding conducted
without a judicial officer, rules of evidence, and traditional trial
procedures).

32

relitigation of “fact-finding” conducted by the
Workers’ Compensation Commission).
It is notable that, in the only reported
appellate decision under SG §10-222.1, the Court of
Special Appeals held that an ALJ’s findings in a final
administrative decision applying a personnel law
were binding in the enforcement action. Department
of Health & Mental Hygiene v. Rynarzewski, 164 Md.
App. 252, 255-57 (2005) (listing findings of fact that
resulted in ALJ’s conclusion that agency lacked basis
for terminating employee). That decision did not
suggest that a circuit court in an enforcement action
under SG §10-222.1 would be bound by an ALJ’s
legal analysis of the governing statute.
Federal courts have also emphasized the fact
finding nature of an administrative proceeding in
according it preclusive effect, but do not accord the
same binding effect to an agency’s legal
conclusions.36 This distinction between the preclusive
36 In the leading case of University of Tennessee v. Elliott, 478
U.S. 788 (1986), the Supreme Court discussed the preclusive
effect of a State administrative proceeding on a related federal
judicial proceeding. In that discussion, the Court referred
repeatedly to the “administrative factfinding” function and
recognized a policy of applying “principles of issue preclusion to
the factfinding of administrative bodies acting in a judicial
capacity.” 478 U.S. at 797 (emphasis added); see also Kremer v.
Chem. Constr. Corp., 456 U.S. 461, 484 n.26 (1982) (noting that
“so long as opposing parties had an adequate opportunity to
litigate disputed issues of fact, res judicata is properly applied”)
(emphasis added).
An agency’s legal analysis is less likely to have a
preclusive effect. See Edmundson v. Borough of Kennett Square,
4 F.3d 186, 192-93 (3d Cir. 1993) (unreviewed agency legal
determination that plaintiffs Statement was not protected by
First Amendment not given preclusive effect); Peery v. Brakke,

33

effect given to fact findings and legal conclusions
makes sense. As this Court has noted, “[t]he
principal characteristic of a quasi-judicial proceeding
is that of fact-finding by the undertaking body, even
if the relevant facts are undisputed.” Maryland
Overpak Corp. v. Mayor and City Council of
Baltimore, 395 Md. 16, 37 (2006). While an
administrative adjudicator may offer an opinion on
legal issues as part of its final order (and sometimes
may even be required to address such arguments),
that does not mean that a court is precluded from re­
examining that same legal issue in a related
proceeding. Thus, the case law on issue preclusion
draws a distinction between administrative fact
finding and administrative legal determinations for
purposes of finality.
To the extent that the Karabetis case,37 on
which the Court of Special Appeals relied, could be
read to lead to a different conclusion, we disagree
with that decision, at least in the context of an
enforcement action under SG §10-222.1. In
Karabetis, a municipal commission brought an
administrative proceeding against a bakery under a
826 F.2d 740, 746 (8th Cir. 1987) (unreviewed State agency
decision that plaintiff did not have due process right to a pre­
termination hearing not accorded preclusive effect); Romano v.
SLS Residential, Inc., 812 F.Supp.2d 282, 290-91 (S.D.N.Y.
2011) (State administrative agency fact findings concerning
restraints in mental health facility would be given preclusive '
effect, but not agency’s legal conclusions based on those
findings); Perley v. Palmer, 157 F.R.D. 452, 457 (N.D. Iowa
1994) (State agency’s conclusions on disputed issues of law
related to Medicaid benefits not given preclusive effect).
37 Karabetis v. Mayor and City Council of Baltimore, 72 Md.
App. 407 (1987).

34

local wage and hour law for overtime violations. The
commission found that the bakery, which only briefly
appeared in the proceeding, had violated the
ordinance and issued an order requiring the bakery
to pay specific amounts in restitution and civil
penalties. The bakery did not seek judicial review of
that determination. The city later brought an action
against the bakery to enforce the commission’s order
and the bakery attempted to defend by challenging
the validity of the order on various grounds.
The Court of Special Appeals held that the
bakery was precluded from raising its defenses,
including an argument that the commission’s
jurisdiction was preempted by federal law. It
reasoned that the commission’s decision had become
a “final judgment” that was “enrolled” by virtue of
the bakery’s failure to seek judicial review of that
decision. 72 Md. App. at 414-18, 423.38 The court
Stated that principles of finality can make a final
administrative decision binding on questions of law.
However, despite that holding, the court proceeded to
analyze the bakery’s legal preemption argument in
some detail, as well as the evidence that the bakery
presented in the circuit court to support the
preemption defense. In the end, it rejected that
defense.
An enforcement action under SG §10-222.1 is
not an occasion for the losing party in an
administrative proceeding to challenge the fact
findings of an ALJ that underlie the final
administrative decision. However, the prevailing
party must still establish a “clear legal right” to the
38 In Karabetis, the court applied the doctrine of claim
preclusion, the closely related cousin of issue preclusion.

35

relief sought in order to obtain a writ of mandamus
in aid of enforcement.
Application to the ALJ’s Decision
In considering Mr. Geppert’s argument that
we should give binding effect to the ALJ’s decision in
this case, three aspects of the administrative decision
are notable:
First, in his enforcement action, Mr. Geppert
does not rely on any fact findings of the AU. Indeed,
the only actual fact findings that the ALJ could be
said to have made were (1) that Mr. Geppert had not
made a false certification on his application - which
was not the reason that the MVA had rejected his
license application and (2) that Mr. Geppert did not
have a social security number and had not shown he
was ineligible for one - i.e., that he had failed to
satisfy the statutory SSN requirement - which is not
a finding on which Mr. Geppert wishes to rely.39
2.

39 In fact, on appeal Mr. Geppert has advanced an argument
somewhat at odds with his contention that the ALJ’s
determinations are binding in this proceeding. In particular,
Mr. Geppert argues that, contrary to the conclusion drawn by
the ALJ, he in fact satisfies the statutory requirement that he
prove ineligibility for a social security number. He asserts that
he was “not eligible for a Social Security number” - and
therefore both satisfied TR §16-106(c)(2) and was not
disqualified under TR § 16-103. l(ll)(ii) - because he has never
applied for a social security number. Mr. Geppert did not make
this argument to the AU. The Court of Special Appeals, which
specifically noted that Mr. Geppert is eligible to obtain a social
security number, Geppert, 2019 WL 4233845 at *1, apparently
found no merit in this reasoning. Neither do we. To say one is
not eligible for something simply because one has not applied
for it is like celebrating one’s team as undefeated for a season in
. which it has not played any games.

36

Second, the ALJ’s order is based on a legal conclusion
that a purportedly current regulation (later
determined to have been repealed) that is
inconsistent with the governing statute somehow
trumps the statute — a legal conclusion that
indisputably violates a basic principle of
administrative law.40 The fact that the MVAs
computer application form also appeared to be
inconsistent with the statute would not detract from
the relative weight to be given to the statute. See
Sugarloaf Citizens Ass’n v. Northeast Maryland
Waste Disposal Auth., 323 Md. 641, 663 n.2 (1991)
(“an administrative practice is entitled to no weight
where it is inconsistent with the statutory scheme”).
A poorly worded form cannot override the clearlyStated intent of the Legislature.
In the end, the ALJ came to a fork in the road at
which the statute pointed in one direction and the
(repealed) regulation pointed in the opposite
direction. She took the road less traveled. Perhaps it
was out of understandable exasperation with the
agency and what she perceived to be its inconsistent
regulations. But that legal determination was wrong
and led her to disregard her determination that Mr.
Geppert had failed to satisfy the statutory SSN
requirement.
Third, the ALJ’s order based on the final
administrative decision required the MVA to issue a
learner’s permit to Mr. Geppert. The Court of Special
40 “P]t is axiomatic that an administrative regulation must be
consistent with the letter and policy of the statute under which
the administrative agency acts.” Insurance Commissioner v.
Bankers Independent Ins. Co., 326 Md. 617, 623 (1992); see also
Christ v. Maryland Dep’t of Nat. Res., 335 Md. 427, 437 (1994).

37

Appeals’ decision, while holding that the ALJ’s
decision must be enforced, does not grant the relief
that the ALJ ordered. Rather, it held that Mr.
Geppert must first comply with certain conditions
required by Title 16 for obtaining a permit - passage
of the learner’s permit exam and* presumably the
vision test. See TR §16-110. (Even Mr. Geppert
appears to concede that he is not entitled to issuance
of a learner’s permit without compliance with those
conditions). This sensible conclusion on the part of
the intermediate appellate court demonstrates that a
court called upon to enforce an administrative
decision does not act with blinders on. Judicial
enforcement of an administrative order inevitably
incorporates some consideration of the law on which
the order is based. Here, the SSN requirement in TR
§16-106(c) is also a condition, like the learner’s
permit exam and vision test, established by Title 16
as a statutory prerequisite to a learner’s permit. And
there is also a second statute - TR §16-103.1(11) that explicitly bars the MVA from issuing a license
when the SSN requirement is not met.
Binding a court to a clearly incorrect legal
determination of an ALJ on behalf of an executive
branch agency could have serious consequences. Mr.
Geppert’s position would appear to allow an
executive branch agency to stake out a position
contrary to that which the Legislature has clearly
expressed in statute and insulate it from correction
by the judicial branch. For example, an
administrator of an agency could adopt a regulation
inconsistent with the pertinent statute enacted by
the General Assembly, retain final decision making
authority, and uphold the validity of that regulation

38

m a final administrative decision. If the agency s
enforcement arm did not seek judicial review of that
final agency decision, under Mr. Geppert’s theory,
that erroneous legal position would be automatically
binding on the judicial branch. Such a result
undermines the separation of powers and system of
checks and balances of the State Constitution. See
Maryland Declaration of Rights, Article 8;41 cf. PDR
Network, LLC v. Carlton & Harris Chiropractic, Inc.,
139 S.Ct. 2051, 2057 (2019) (Thomas, J., concurring)
(a law that required a federal court in an
enforcement action to be bound by an agency order
interpreting the statute on which the enforcement
action was based would be unconstitutional).
In our view, the failure of the MVA to pursue
judicial review of the ALJ’s erroneous legal
determination did not tie the hands of the Circuit
Court when it was asked to enforce that legal
determination in an order based on the ALJ’s
decision.

4i The Court of Special Appeals suggested that its decision
directing the Circuit Court to order the MVA to take action
contrary to a State statute would not have a significant impact
because the regulation on which the ALJ’s decision was based
had been repealed. Geppert, 2019 WL 4233845 at *12 n.8. Even
though the regulation had been repealed (in fact, before Mr.
Geppert applied for a learner’s permit) and even though the
intermediate appellate court’s decision was unreported and
therefore not precedent for purposes of stare decisis, see
Maryland Rule l-204(a), there remains some potential for
application of the ALJ’s decision in other cases under the
concept of non-mutual collateral estoppel, a doctrine distinct
from the general rule of stare decisis. See Garrity, 447 Md. at
369-70. While we do not know if that would come to pass,
neither can we completely discount the possibility.

39

V

c.

Summary
What began as one teenager’s effort to get a
driver’s license, coupled with what appears to be a
principled opposition to social security numbers, has
been transformed into litigation that raises
important and complex issues - but unnecessarily so.
To be sure, it would have been vastly preferable for
the MVA simply to have sought reversal of the ALJ’s
decision through a judicial review action under SG
§10-222. Had it done so, a reviewing court would no
doubt have come to the unremarkable conclusion
that the ALJ’s decision was legally unsustainable.
And the matter likely would have ended there, as the
issue whether an applicant must satisfy the SSN
requirement in that context would not have merited
further discretionary review under the standards
governing certiorari.
From the outset, this case has been dogged by
mishaps and missteps seldom seen together in one
case — reliance on a rescinded regulation that had
inexplicably remained on the books (and in official
cyberspace) for years after it was rescinded, a
computer application that deviated from the law by
using the conjunction “or” rather than “and” at a
critical juncture, an agency’s failure to seek judicial
review of an adverse administrative decision, an
enforcement action that seeks a writ of mandamus to
order an agency to do something that the Legislature
has expressly forbidden, the temporary dismissal of
that enforcement action for failure to prosecute, and
the diversion of the appeal of that action to the
intermediate appellate court in a rare instance where
that court lacked appellate jurisdiction.

40

However, two things have remained true
throughout:
(1) A statute (TR §16-106(c)), consistent with
federal law, requires that an applicant for a
Maryland driver’s license satisfy the SSN
requirement and another statute (TR §16-103.1(11))
explicitly prohibits the MVA from giving a license to
an applicant who does not do so.
(2) Mr. Geppert does not have a social security
number even though he is eligible for one, and
therefore has not satisfied the statutory SSN
requirement — as the ALJ herself found.
Taken together, that means that Mr. Geppert
does not have a clear legal right to the relief that he
has sought in this action. Neither the executive
branch, in the guise of either the MVA or the ALJ
who acted as the MVA’s final decision maker, nor the
judicial branch in an enforcement action, has
authority to override the legislative determination
that decides this case.42
Mr. Geppert may not agree with the
Legislature’s decision to require a social security
number as a prerequisite to a driver’s license. One
42 In an argument made for the first time in this Court, Mr.
Geppert contends that he has a property right in a driver’s
license and that the Circuit Court’s decision that the SSN
requirement in the Maryland Vehicle Law prevails over the
more lenient repealed regulation violates his right to due
process. Under Maryland Rule 8-131(a), an appellate court
ordinarily will not decide an issue that was neither raised nor
decided in the trial court. In any event, there is no fundamental
“right to drive,” as Mr. Geppert suggests. MVA v. Seenath, 448
Md. 145, 183 (2016). Moreover, this Court has previously held
that the MVA’s denial of a license when required to do so by TR
§16-103.1 accords with due process. Alavez v. MVA, 402 Md.
727, 737-39 (2008).

41

can certainly debate the wisdom of the SSN
requirement, which relates more to immigration
enforcement and child support enforcement, than to
driver capability or highway safety. But that debate
belongs in the State House rather than an MVA
branch office, as it is ultimately the General
Assembly that resolves the policy issues in the
statute that governs the right to operate a motor
vehicle in Maryland.
V
Conclusion
For the reasons explained above, we hold:
(1) A party who seeks to appeal a circuit court
decision in an enforcement action under SG §10222.1 that arises under Title 16 of the Maryland
Vehicle Law should file a petition for certiorari with
this Court pursuant to CJ §12-305. If such an appeal
is incorrectly filed in the Court of Special Appeals, it
should be transferred to this Court pursuant to
Maryland Rule 8-132 to be treated as a petition for a
writ of certiorari.
(2) The Circuit Court did not err in declining
to afford binding effect to the ALJ’s erroneous legal
conclusion that a regulation (later determined to be
repealed) superseded the statutory SSN requirement.
The Circuit Court properly rejected Mr. Geppert’s
request for a writ of mandamus to enforce the ALJ’s
decision because he did not have a clear legal right to
the relief granted by the ALJ’s order.

JUDGMENT OF THE COURT OF
SPECIAL APPEALS REVERSED.
COSTS TO BE PAID BY
RESPONDENT.

42

